C@OCKLE

2311 Douglas Street L ega l B ri f E-Mail Address:
Omaha, Nebraska 68102-1214 8 EB A 9 a contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Faas (402) 342-4850 Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,

v.
AGNES MORRISSEY-BERRU,
Respondent.

ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTEN BIEL,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF COLPA, AGUDATH ISRAEL OF
AMERICA, AGUDAS HARABBONIM, NATIONAL COUNCIL OF YOUNG ISRAEL, ORTHODOX JEWISH
CHAMBER OF COMMERCE, RABBINICAL ALLIANCE OF AMERICA, AND RABBINICAL COUNCIL OF AMERICA
IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority
Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Of Counsel NATHAN LEWIN
DENNIS RAPPS Counsel of Record
450 Seventh Avenue ALYZA D. LEWIN
44th Floor LEWIN & LEWIN, LLP
New York, NY 10123 888 17th Street NW,
(646) 598-7316 4th Floor
drapps@dennisrappslaw.com Washington, DC 20036

(202) 828-1000
nat@lewinlewin.com

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 7th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . %
State of Nebraska . LS Qudraw- ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39448

 

 
 

Attorneys for Petitioner (both)

Eric Christopher Rassbach The Becket Fund for Religious Liberty 202-955-0095
Counsel of Record 1200 New Hampshire Avenue, NW
Suite 700

Washington, DC 20036

erassbach@becketlaw.org

Party name: Our Lady of Guadalupe School
Party name: St. James School

 

 

Attorneys for Respondent (both)

Jennifer Anne Lipski JML Law, A Professional Law Corporation 818-610-8800
Counsel of Record 5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367

jennifer@jmllaw.com

Party name: Agnes Morrissey-Berru
Party name: Darryl Biel

 

 
